U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




      September 13, 2006

      MEMORANDUM FOR:            EMILY STOVER DeROCCO
                                 Assistant Secretary for Employment
                                  and Training




      FROM:                      ELLIOT P. LEWIS
                                 Assistant Inspector General
                                  for Audit

      SUBJECT:                   Individuals Received Disaster Unemployment
                                 Assistance in Louisiana While Receiving
                                 Unemployment Compensation in Mississippi
                                 Management Letter No. 06-06-009-03-315

      INTRODUCTION

      Normally, a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that only after the information in this Management Letter
      is evaluated/investigated by the OIG’s Offices of Audit (OA) and Labor
      Racketeering and Fraud Investigations (OLRFI), the Louisiana Department of
      Labor, and the Mississippi Department of Employment Security, can a
      determination be made as to the legitimacy of the unemployment claims
      discussed herein.

      SUMMARY

      The purpose of the Disaster Unemployment Assistance (DUA) program is to
      provide unemployment assistance to those individuals who become unemployed
      or cannot commence employment as a direct result of a major disaster, but are
      not covered under the Federal or state Unemployment Compensation (UC)
      programs. Therefore, DUA is not payable in lieu of, or in addition to, UC. We
      analyzed DUA and UC claims filed in the States of Louisiana and Mississippi

                       Working for America’s Workforce
following Hurricanes Katrina and Rita to identify instances of individuals receiving
DUA in one of the two states while receiving state unemployment compensation
in the other State.

We did not find any DUA payments by the State of Mississippi to Louisiana UC
recipients; however, the State of Louisiana paid $54,782 of Hurricanes Katrina-
and Rita-related DUA to 45 individuals who also received UC from the State of
Mississippi. Louisiana has already collected a refund of $4,900 of the above
overpayments from the bank that administered the debit card accounts that the
State used to deposit claimants’ benefit payments. The Louisiana DUA
overpayments identified in this report are in addition to other DUA claims similarly
overpaid as reported in our March 20, 2006, Management Letter No. 06-06-008-
03-315.

BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts resulting in a national disaster. Both the States of Louisiana and
Mississippi were inundated with Unemployment Insurance (UI) and Disaster
Unemployment Assistance (DUA) claims.

SCOPE AND METHODOLOGY

We previously issued two Management Letters regarding multiple claims for
certain individuals. We first issued Management Letter No. 06-06-004-03-315 on
December 20, 2005, in which we notified ETA that our data mining techniques
had identified over 200 claimants that had multiple DUA/DUA or UC/DUA claims
between Mississippi and Louisiana. Management Letter No. 06-06-008-03-315,
issued March 20, 2006, identified the amount of overpayments for the claims
identified in the first Management Letter.

Both previously issued Management Letters were based on Hurricane Katrina
benefits data files we obtained in late October (Mississippi) and early November
2005 (Louisiana). At that time, Mississippi had processed 85,370 UC and 16,415
DUA claims for weeks ending September 10 through October 15, 2005.
Louisiana had processed 186,531 UC and 86,871 DUA claims for weeks ending
September 10 through November 5, 2005.

We updated those files with additional Hurricanes Katrina and Rita claims with
benefits paid through the week ending December 10, 2005, in Louisiana, and
December 24, 2005, in Mississippi.1 At the time, Mississippi had processed


1
 We subsequently updated our data files through June 3, 2006, but have not yet performed any
data mining on that file for additional multiple claimants. However, due to the time that has
passed since the disaster on August 29, 2005, we do not anticipate that any new DUA claims
would have been filed after December 24, 2005.


                                              2
119,069 UC and 21,139 DUA claims, and Louisiana had processed 220,998 UC
and 102,777 DUA claims.

We used this updated file to perform a computer analysis, but manually updated
benefit payments for any exceptions through March 4, 2006. Consequently, our
scope for this report is September 10, 2005, through March 4, 2006.

We used both Mississippi and Louisiana DUA/UC computer-processed claims
and benefits data to determine if claimants filed unemployment claims in more
than one of the two states in violation of the law. Using computer benefit files
that were updated to reflect payments made and claims filed through
December 10, 2005, we matched Mississippi’s and Louisiana’s’ UC/DUA data
files against each to determine if other claimants, not previously identified, had
filed DUA/DUA or UC/DUA claims in both States.2 For the 45 additional multiple
claims identified by this match, we manually updated, from Louisiana’s benefit
history file, the amount of benefits paid to these 45 claimants between
December 10, 2005, through the week ending March 4, 2006. All benefit
payments to these individuals between September 10, 2005 (first week DUA
benefits were paid), through March 4, 2006, are questioned in this draft
Management Letter.

RESULTS

The State of Louisiana paid $54,782 of Hurricanes Katrina- and Rita-related DUA
to 45 individuals who also received UC from the State of Mississippi. Louisiana
has already collected refunds of $4,900 of the above overpayments from the
bank that administered the debit card accounts that the State used to deposit
claimants’ benefit payments. The Louisiana DUA overpayments identified in this
report are in addition to other DUA claims similarly overpaid, as reported in our
March 20, 2006, Management Letter No. 06-06-008-03-315.

Two actions on the part of the State of Louisiana created the potential for
overpayments. First, although the deadline for submitting eligibility
documentation was extended from 21 days to 90 days from the day the DUA
claim was filed, the State continued to pay DUA to individuals who did not
properly establish eligibility even after the 90 days had passed because of the
volume of documentation that had to be processed to establish eligibility.
Second, Louisiana decided to pay all DUA/UC claimants through the week
ending November 19, 2005, without requiring claimants to certify weekly
eligibility.

The Employment and Training Administration’s (ETA) Employment and Training
Handbook No. 356, page II-1, paragraph 1, states:



2
    This report includes only those claimants who received UC in one state and DUA in the other.

                                                 3
      Relationship of Unemployment Compensation (UC) to DUA.
      The first line of defense to an individual’s unemployment due to a
      disaster is the unemployment compensation program. Section
      401(a) of the Stafford Act prohibits the payment of DUA for any
      week of unemployment for which an unemployed individual
      qualifies for unemployment compensation or waiting period credit
      under any Federal or State Law. The purpose of the DUA
      program is to provide unemployment assistance to those
      individuals who become unemployed or cannot commence
      employment as a direct result of a major disaster but are not
      covered under the Federal or State UC programs. Therefore,
      DUA is not payable in lieu of, or in addition to, UC.
      [Emphasis added.]

Since these 45 Louisiana DUA claimants were eligible for Mississippi UC
benefits, they were not eligible for DUA benefits from Louisiana.

Title 20, Code of Federal Regulations (CFR), Section 625.14 provides:

     (a) Finding and repayment. If the State agency of the applicable
     State finds that an individual has received a payment of DUA to
     which the individual was not entitled under the Act and this part,
     whether or not the payment was due to the individual’s fault or
     misrepresentation, the individual shall be liable to repay the
     applicable State the total sum of the payment to which the
     individual was not entitled, and the State agency shall take all
     reasonable measures authorized under any State law or
     Federal law to recover for the account of the United States the
     total sum of the payments to which the individual was not
     entitled.
                        .     .    .   .    .     .    .

     (e) Application of State law. Any provision of State law
     authorizing waiver of recovery of overpayments of
     compensation shall not be applicable to DUA.

Because these 45 claimants received DUA benefits to which they were not
entitled, the State of Louisiana should establish overpayments for the amounts
we have identified, and collect the funds not already collected, from these
claimants.

We have provided the details of the overpayments made to the 45 claimants to the
OIG’s Office of Labor Racketeering and Fraud Investigations, the State of
Louisiana, and ETA under separate cover,

We did not find any DUA payments by the State of Mississippi to Louisiana UC
recipients.

                                         4
RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training direct the
State of Louisiana to:

      1. Establish and collect the overpayments not already collected.

      2. Determine any additional overpayments after the week ending March 4,
         2006, to these claimants and include them in the State’s overpayments
         and collections.

Also, because of the susceptibility for these federally-funded DUA claims to be
fraudulent, we recommend the Assistant Secretary:

      3. Continue to work with the OIG’s Office of Labor Racketeering and Fraud
         Investigations and the State of Louisiana to expedite the identification of
         fraudulent claims for appropriate action.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that the Louisiana Department of Labor has
turned over the cases in question to the OIG’s OLRFI, and will take steps to set
up and recover all overpayments upon receiving the results of OLRFI’s
investigations. The Assistant Secretary’s response is included in its entirety as
an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of documentation to support the State’s
actions to set up and recover all overpayments, as described in the response.

This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment

cc:      Steven Law
         Deputy Secretary

         Phyllis Newby

                                           5
ETA Audit Liaison




                    6
7
